       MANAGEMENT ADVISORY
       REPORT



Grievance Payout Costs in
the South Florida District
  June 11, 2014




                  Report Number HR-MA-14-008
                                                                      HIGHLIGHTS

                                                                       June 11, 2014
                                  Grievance Payout Costs in the South Florida District
                                                       Report Number HR-MA-14-008
BACKGROUND:
The U.S. Postal Service has about              WHAT THE OIG FOUND:
490,000 career employees, most of              We reviewed 30 randomly selected
whom are covered by collective                 FY 2013 grievance payout costs from
bargaining agreements with the                 the South Florida District totaling
four major postal unions. The National         $22,771 and found supervisors violated
Labor Relations Act gives employees            Postal Service agreements primarily to
and unions the right to file grievances,       address overtime and staffing issues.
which are disputes between an                  Fifteen of 30 grievance payouts were
employer and employee or unions over           related to overtime. We found
interpretation or application of, or           supervisors did not appropriately assign
compliance with, the agreements.               overtime, required employees to work
                                               outside their skill sets, moved carriers
The grievance-arbitration process              from their regular routes, performed
provides a mechanism for resolving             employees’ duties, denied access to
disagreements between management               union representatives, and took other
and employees or unions over wages,            violative actions to address overtime
hours, and employment conditions. A            and staffing issues.
grievance payout cost is payment to an
employee as part of a grievance                In the South Florida District,
settlement.                                    overall grievance payout costs
                                               increased 95 percent from FYs 2012 to
Nationwide, Postal Service grievance           2013 primarily due to a backlog of
payout costs decreased from $179               claims and a significant one-time
million in fiscal year (FY) 2009 to $87        settlement from FY 2008. Grievance
million in FY 2012 but increased to $106       payout costs related to overtime issues
million in FY 2013. The South Florida          increased 82 percent. We identified
District had more than $7.6 million in         accountability measures in the Central
grievance payout costs in FY 2013,             Plains District that could benefit the
which was the highest payout of 67             South Florida District. Accountability
districts. The U.S. Postal Service Office      measures will help ensure management
of Inspector General Human Resources           corrects ongoing issues so fewer
risk model revealed the South Florida          grievances exist.
District ranked among districts with the
highest grievance costs.                       WHAT THE OIG RECOMMENDED:
                                               We recommended management
Our objective was to determine the             implement accountability measures from
cause of high grievance payout costs in        the Central Plains District regarding
the South Florida District.                    grievances and grievance payout costs.
                                               Link to review the entire report
June 11, 2014

MEMORANDUM FOR:            JEFFERY A. TAYLOR
                           DISTRICT MANAGER, SOUTH FLORIDA DISTRICT




FROM:                      Janet M. Sorensen
                           Deputy Assistant Inspector General
                            for Revenue and Resources

SUBJECT:                   Management Advisory Report – Grievance Payout Costs in
                           the South Florida District
                           (Report Number HR-MA-14-008)

This report presents the results of our review of the U.S. Postal Service's Grievance
Payout Costs in the South Florida District (Project Number 13YG036HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Grievance Payout Costs in the South Florida District                                                              HR-MA-14-008




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Grievance Nature and Number of Instances ................................................................... 2

Monitoring Actions ........................................................................................................... 6

Best Practices ................................................................................................................. 7

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Management’s Comments ........................................................................ 11
Grievance Payout Costs in the South Florida District                                                          HR-MA-14-008




Introduction

This report presents the results of our self-initiated review of grievance payout costs in
the South Florida District (Project Number 13YG036HR000). Our objective was to
determine the cause of high grievance payout costs in this district. See Appendix A for
additional information about this review.

The U.S. Postal Service has about 490,000 career employees, most of whom are
covered by collective bargaining agreements with the four major postal unions. The
National Labor Relations Act gives employees and the unions the right to file
grievances, which are disputes between the Postal Service and employees or unions
over interpretation or application of, or compliance with, union agreements. The
grievance-arbitration process provides a mechanism for resolving disagreements
between management and employees or unions over wages, hours, and employment
conditions. A grievance payout cost is payment to an employee that is part of a
grievance settlement.

Postal Service grievance payout costs decreased from $179 million in fiscal year (FY)
2009 to $87 million in FY 2012 but increased to almost $106 million in FY 2013. The
South Florida District had the highest grievance payout costs of all 67 districts in
FY 2013. Total costs were more than $7.6 million. Our Human Resources risk model1
revealed the South Florida District consistently ranked among the 10 districts with the
highest grievance costs.

Conclusion

We reviewed 30 randomly selected FY 2013 grievance payout costs2 totaling $22,771
from the South Florida District and found that supervisors violated Postal Service
collective bargaining agreement provisions primarily to address overtime and staffing
issues. We found 15 of 30 grievance payouts reviewed related to overtime issues, and
overtime-related grievances represented 54 percent of all grievances in FY 2013.
Specifically, supervisors did not appropriately assign overtime, required employees to
work outside their skill sets, moved carriers from their regular routes, performed
employees’ duties, denied access to union representatives, and took other violative
actions to address overtime and staffing issues.

The South Florida District monitors overtime grievances as part of the Delivering
Results, Innovation, Value and Efficiency (DRIVE) Initiative 7, Resolve Disputes

1
  The U.S. Postal Service Office of Inspector General’s (OIG) Human Resources risk model examines selected
human resource indicators for each Postal Service district to detect potential risk areas that could affect employee
morale, productivity, efficiency, and cost. It ranks Postal Service districts in order of risk in different areas including
grievance payout costs per 100 bargaining unit employees.
2
  Grievance payout data for sampling was obtained from the Grievance and Arbitration Tracking System (GATS),
Grievance Payouts Processed by GATS Detailed Report.
                                                             1
Grievance Payout Costs in the South Florida District                                                   HR-MA-14-008



Effectively.3 As part of this initiative, management established a nationwide goal of
reducing overtime grievance payout costs by 10 percent for FY 2013. In the South
Florida District, overall grievance payout costs increased 95 percent in FY 2013
compared to FY 2012, and grievance payout costs related to overtime issues increased
82 percent. District management stated that this occurred primarily because the district
had a backlog of claims that contributed to high grievance payout costs, including a
$900,000 grievance payout from FY 2008.

For FY 2014, management set a goal of reducing all types of grievance payout costs by
10 percent from the FY 2013 level by focusing on problematic grievance issues. In the
South Florida District, payout costs for overtime-related grievances decreased 5 percent
through Quarter (Q) 2 of FY 2014 compared to the same period last year and overall
grievance costs decreased 33 percent for that same period.

The South Florida District could benefit from adopting the accountability measures used
in the Central Plains District.4 Accountability measures will help ensure management
corrects issues so fewer grievances are lodged.

Grievance Nature and Number of Instances

We reviewed 30 randomly selected FY 2013 grievance payouts from the South Florida
District and found that supervisors violated Postal Service collective bargaining
agreement provisions primarily to address overtime and staffing issues. Table 1 shows
the nature of grievances and the associated instances of them for the 30 cases we
reviewed.




3
  DRIVE is a data-driven management process to improve the Postal Service's business strategy development and
execution through 24 active key initiatives. These initiatives focus on cutting costs, generating revenue, improving
customer experience, and engaging employees and other key stakeholders in organizational change.
4
  We selected the Central Plains District, because it significantly reduced its grievance payout costs from Q3, FY
2012 to Q3, FY 2013.

                                                          2
Grievance Payout Costs in the South Florida District                                                    HR-MA-14-008




                      Table 1: Grievance Nature and Number of Instances

                                                            Number of
          Nature of Grievance                               Instances               Payout Cost
Assignment of Overtime                                              15                      $12,856
Require Employee to Work Outside Skill                                4                       4,018
Set
Move Carriers From Regular Routes                                          2                         3,755
Supervisor Performed Employees’ Duties                                     2                         1,411
Supervisor Denied Employee Access to                                       2                           310
Union Representative
Other5                                                                     5                         421
Total                                                                     30                     $22,771
Source: OIG analysis.

Assignment of Overtime

We found that supervisors did not grant overtime to employees who wanted it,6 required
employees to work overtime when they did not want to,7 did not distribute overtime
equitably among those who desired it,8 or did not assign overtime in accordance with
contract provisions. These actions were due to:

   Shortage of carriers or clerks. In one instance, a supervisor assigned carriers to
    overtime over 12 hours daily or 60 hours weekly because carriers were absent due
    to leave or unscheduled absences. Supervisors stated that hiring city carrier
    assistants has helped with staffing shortages.




5
  These include not timely providing information to the union, making no effort to find work for limited duty employees,
an employee voluntarily using a private vehicle, denying a union representative work time to process grievances, and
denying a temporary employee work time to take test.
6
  Article 8.5.C.2.a of the 2011-2016 agreement between the Postal Service and the National Association of Letter
Carriers (NALC) states that during the quarter, when the need for overtime arises, employees with the necessary
skills are selected from the “Overtime Desired” list. The list includes the names of employees who want overtime
work.
7
  Article 8.5 G, of the 2011-2016 agreement between the Postal Service and NALC states that full-time employees not
on the “Overtime Desired” list may be required to work overtime only if all available employees on the “Overtime
Desired” list have worked up to 12 hours in a day or 60 hours in a service week.
8
  Article 8.5 C.2.b of the 2011-2016 agreement between the Postal Service and NALC states that during the quarter
every effort will be made to distribute equitably the opportunities for overtime among those on the “Overtime Desired”
list.

                                                           3
Grievance Payout Costs in the South Florida District                                                    HR-MA-14-008




   Lack of oversight. In one instance, a supervisor was not aware of an employee’s
    preference to work no more than 10 hours.9 Therefore, the supervisor assigned
    more than 10 hours to that employee instead of selecting an employee who
    requested more than 10 hours. In three instances, supervisors did not track overtime
    assigned to carriers to ensure it was equitably distributed. In response, management
    at these locations either trained supervisors or tracked overtime weekly, including
    reviewing the tracking list with the union representative. The district office also
    provided instructions for tracking overtime.

   Lack of awareness/training. In one instance, a supervisor continually bypassed a
    carrier technician who was on the overtime list and instead assigned overtime to
    regular carriers.10 The manager, Customer Services, stated she believes that current
    contract training does not address the specific issue of assigning overtime to carrier
    technicians and regular carriers, and each city handles the situation differently.
    Subsequent to that grievance payout cost, supervisors at that facility began
    highlighting carrier technicians on the route schedule as a reminder to select carrier
    technicians for overtime assignments.

   Avoid overtime. In one instance, a supervisor assigned overtime to an employee
    who did not request it because another employee who was on the “Overtime
    Desired” list was already working on his day off. The manager stated that the
    supervisor, who moved to another facility, might not have wanted to assign
    additional overtime. In a second instance, a supervisor did not assign overtime to a
    carrier because the supervisor did not want the carrier to work 10 hours. Since these
    incidents occurred, the location implemented a plan to use city carrier assistants for
    additional and unexpected work.




9
  The USPS-NALC Joint Contract Administration Manual, dated April 2009, states that, normally, employees on the
“Overtime Desired” list who do not want to work more than 10 hours a day shall not be required to do so as long as
employees who do want to work more than 10 hours a day are available to do the needed work without exceeding the
12-hour [a day] and 60-hour [a week] limitation.
10
   The 2011-2016 agreement between the Postal Service and NALC, Memorandum of Understanding, Work
Assignment Overtime, states that T6 (carrier technicians) or utility carriers would be considered available for overtime
on any of their assigned routes.

                                                           4
Grievance Payout Costs in the South Florida District                                                  HR-MA-14-008




Require Employees to Work Outside Skill Set

Supervisors required employees to work outside their skill sets due to a shortage of
clerks.11 In one instance during the Christmas holiday, several clerks were off duty, so
temporary employees scanned parcels. In another instance, the supervisor stated it was
necessary for carriers to perform clerk duties because three clerks were on sick leave.
A Postal Service review of time and attendance records showed that clerks were
available for work. As a result, the clerks available for work received a grievance
payment. In a third instance, a previous supervisor had employees work outside their
skill sets. The labor relations specialist who settled the grievance stated that there may
have been staffing shortages and the supervisor did what was necessary to move the
mail and keep operations running. The current supervisor stated that she discontinued
the practice of having employees work outside their skill sets, including having other
employees perform clerk duties.

Move Carriers From Regular Routes

We found two instances in which supervisors moved carriers from their regular routes.12
In one instance, a supervisor moved the most productive carriers off their routes to
avoid overtime and maintain efficient operations. In a second instance, the supervisor
moved carriers off their scheduled routes to meet operational needs and to get carriers
back to the station by 6:30 p.m. He also stated that four carriers were absent due to
illness and injury, which contributed to his decision.

Supervisor Performed Employees' Duties

We found two instances in which supervisors performed work normally done by union
employees.13 In one instance, an acting supervisor performed carrier duties.14 The
supervisor’s manager stated that the supervisor should not have performed those duties
and, in the future, the supervisor will assign overtime instead of doing a carrier’s work.
In another instance, a supervisor had only one employee working. Rather than remove


11
   Article 7.2.A of the 2011-2016 agreement between the Postal Service and NALC, and the 2010-2015 agreement
between the Postal Service and the American Postal Workers Union both state that, normally, work in different crafts,
occupational groups, or levels will not be combined into one job. However, to provide maximum full-time employment
and necessary flexibility, management may establish full-time schedule assignments by including work within different
crafts or occupational groups after the following sequential actions have been taken: all available work within each
separate craft by tour has been combined, and work of different crafts in the same wage level by tour has been
combined. The appropriate representatives of the affected unions will be informed in advance of the reasons for
establishing the combination full-time assignments within different crafts in accordance with this article.
12
   Article 41.2.A.3 of the 2011-2016 agreement between the Postal Service and NALC states that "no employee
solely because of this article will be displaced from an assignment the employee gained in accordance with former
rules."
13
   Article 1.6 of the agreement between the Postal Service and the National Postal Mail Handlers Association and the
2011-2016 agreement between the Postal Service and NALC state that supervisors are prohibited from
performing bargaining unit work at post offices with 100 or more bargaining unit employees, except 1) in an
emergency, 2) for the purpose of training or instruction of employees, 3) to assure the proper operation of equipment,
4) to protect the safety of employees, or 5) to protect the property of the Postal Service.
14
   Although the supervisor performed an employee’s duties, the grievance was classified as an overtime grievance.

                                                          5
Grievance Payout Costs in the South Florida District                                      HR-MA-14-008



the employee from his work to assign him to another task, the supervisor performed the
second task.

Supervisor Denied Employee Access to Union Representative

We found two instances at the same facility in which supervisors did not grant
employees access to union representatives within 72 hours of the request as required
by the local memorandum.15 The supervisor, Customer Services, stated that
management at the facility had a contentious relationship with union representatives.
Headquarters personnel visited the facility to address issues between the NALC and
local management. The supervisor stated that the issue no longer exists at the facility.

We could not always establish reasons for actions that led to grievances; however, of
the reasons we identified, most were to avoid overtime or address staffing shortages.
Overtime-related grievances represented 54 percent of all grievances in FY 2013.

Monitoring Actions

In response to the FY 2013 DRIVE Initiative 7 and increased district overtime grievance
payout costs, South Florida District officials initiated the following monitoring actions:

    Facility managers submit a weekly overtime grievance-tracking log to their plant
     managers or postmasters, who review it, identify problems and trends, and follow up
     with individual locations.

    The district labor relations office gives the district a report comparing the previous
     year’s monthly overtime grievance payout costs to those of the current year by mail
     processing facility and manager of Post Office Operations.16

    Each month district labor relations officials report to area labor relations officials the
     five facilities with the highest grievance payout costs or number of grievances. For
     the major grievances, they identify the grievance cause, implement corrective action,
     and then monitor the facility. Currently, the South Florida District primarily reports
     overtime issues because overtime grievances were 72 percent of all grievance costs
     in the Q1, FY 2014.

    District labor relations staff performs unannounced audits17 of overtime equitability
     tracking and supporting documentation for overtime grievance payouts.

    District officials conduct quarterly meetings with the unions to discuss grievance
     issues.



15
   A local memorandum of understanding between the South Florida District and the NALC.
16
   A manager at the district who has oversight of many Post Office facilities.
17
   The district audited six locations in January 2014.

                                                       6
Grievance Payout Costs in the South Florida District                           HR-MA-14-008



   Managers at the Miami Post Office created a method to track the time it takes to
    process a grievance through settlement. Management plans to implement the
    method district-wide.

   The district manager follows up individually with managers and postmasters on
    grievance issues.

Other ongoing monitoring that may have a grievance component includes daily
teleconferences with the district manager, other labor relations meetings, and meetings
between the district and area offices.

According to a union official, the district manager was responsive at the quarterly
meetings, but information and directives may not always be communicated to individual
offices because the same violations continue to occur. Also, some managers instruct
union officials to file grievances on various issues so it does not appear managers are
held accountable for grievance numbers or costs. Finally, while labor relations officials
are helpful in resolving grievances, field managers and supervisors do not always
respect that position.

Best Practices

The Central Plains District significantly reduced its grievance payout costs from
$270,430 in Q3, FY 2012 to $110,621 in Q3, FY 2013. In the last 3 years, to reduce
grievance payout costs, the district implemented consistent and direct oversight of
grievances and payout costs because supervisors violating the union contract
accounted for 80 percent of those costs. The district manager informed managers of
their contribution toward the district’s total grievance payout costs and reviewed
grievances at manager meetings. He also held managers accountable for grievances
unless extraordinary circumstances existed. South Florida District officials implemented
monitoring actions. However, accountability measures, like those implemented in the
Central Plains District, could also help reduce grievance payout costs in the South
Florida District.

Recommendations

We recommend the manager, South Florida District:

1. Continue to perform monitoring activities related to the Delivering Results,
   Innovation, Value, and Efficiency Initiative 7, Resolve Disputes Effectively.

2. Implement accountability measures from the Central Plains District regarding
   grievances and grievance payout costs.

Management’s Comments

Management agreed with the findings and recommendations in the report.


                                                       7
Grievance Payout Costs in the South Florida District                                              HR-MA-14-008




Regarding recommendation 1, the South Florida District plans to continue monitoring
activities related to DRIVE Initiative 7 and resolve disputes effectively.

Regarding recommendation 2, management stated the report did not specify the type of
accountability measures the Central Plains District used or when and how it applied
those measures. Consequently, they have contacted the district to request a copy of
their accountability standard operating procedures. Management will share this
information and discuss implementation with the South Florida leadership team when
they receive it.

Management further stated they completed training on proper procedures for overtime
assignments as of March 13, 2014, and will continue internal weekly overtime grievance
tracking that allows for real-time snapshots of any grievance payments related to Article
8.18 In addition, the district will provide training the week of June 23, 2014, on a program
designed to have all timekeeping programs integrated with the Article 8 tracking sheet.
Finally, the district will continue monthly reporting on the five facilities with the highest
grievance pay out costs directly related to overtime violations. District management
stated that these efforts have resulted in positive overtime grievance payout reduction
trends and they will implement the recommendations by July 31, 2014. See Appendix B
for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report and planned corrective actions should resolve the issues identified in the report.

The OIG considers recommendation 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are implemented. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




18
     Article 8 is a section of the 2011-2016 agreement between the Postal Service and the NALC.

                                                           8
Grievance Payout Costs in the South Florida District                                                      HR-MA-14-008




                                  Appendix A: Additional Information

Background

The Postal Service has about 490,000 career employees, most of whom are covered by
collective bargaining agreements with the four major postal unions. The National Labor
Relations Act provides employees and the unions with the right to file grievances, which
are disputes between the Postal Service and employees or unions over interpretation or
application of, or compliance with, the provisions of the respective negotiated contracts.

The grievance-arbitration process, established through collective bargaining, provides a
mechanism for resolving disagreements between management and employees or
unions over wages, hours, and employment conditions. A grievance settled with a
monetary amount is a grievance payout cost.

Nationwide, Postal Service grievance payout costs decreased from $179 million in
FY 2009 to $87 million in FY 2012 but increased to about $106 million in FY 2013.
The South Florida District had the nation’s highest district grievance payout costs of
more than $7.6 million in FY 2013. As part of the Postal Service’s DRIVE Initiative 7,
management established a goal of reducing overtime grievance payout costs by
10 percent. For FY 2014, management began tracking total grievance payout costs
monthly with a goal of reducing grievance payout costs by 10 percent from FY 2013. To
accomplish this, districts identify the five facilities with the highest grievance payout
costs or number of grievances. They identify the causes, implement corrective action,
and then monitor the facilities until the actions that led to the grievances are resolved for
each facility.

Objective, Scope, and Methodology

Our objective was to determine the cause of high grievance payout costs in the South
Florida District. The scope included grievance payouts processed through the GATS19
for FY 2013.

To accomplish our objective, we:

    Selected the South Florida District for review because it had the nation’s highest
     grievance payout costs of $7.6 million for FY 2013, and the OIG Human Resources
     risk model20 consistently ranked21 it among the 10 districts with the highest
     grievance payout costs per 100 bargaining unit employees.



19
   GATS is a web-based tool used to monitor and track grievances and pending arbitration.
20
   The OIG Human Resources risk model examines selected human resource indicators for each Postal Service
district to detect potential risk that may affect employee morale, productivity, efficiency, and cost. Grievances costs
are one of the risk categories in the model.
21
   The rankings were from Q3, FY 2012 until Q3, FY 2013.

                                                            9
Grievance Payout Costs in the South Florida District                           HR-MA-14-008



   Randomly selected 30 of the 6,016 grievance payouts processed through GATS in
    FY 2013.

   Reviewed grievance documentation and contacted supervisors and other officials to
    determine the cause of the grievances reviewed.

   Interviewed district officials and postmasters to understand their grievance
    monitoring efforts.

   Determined why the Central Plains District succeeded in monitoring and controlling
    grievance payout costs and documented best practices.

We conducted this review from September 2013 through May 2014, in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on April 29, 2014, and included their comments where appropriate.

We assessed the reliability of sampled grievance data from the GATS system by
comparing sampled data with grievance file information. We determined that the data
were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG issued Grievances Settlements and Payments Follow Up (Report Number
HR-AR-13-008 dated September 27, 2013). Our report disclosed that management
strengthened internal controls and documentation supporting grievance settlements and
payments has significantly improved. However, case files we reviewed did not always
contain documentation and support did not always exist for settlements and payments
that resulted in $3.4 million in unsupported questioned costs. We recommended
management issue a reminder in writing re-emphasizing the importance of adhering to
the existing internal control guidelines for grievances. Management agreed to reissue its
GATS Internal Controls memorandum. Management disagreed with the unsupported
questioned costs stating that missing settlement documentation in a case file does not
correlate to unsupported and questionable costs.




                                                       10
Grievance Payout Costs in the South Florida District            HR-MA-14-008




                            Appendix B: Management’s Comments




                                                       11
Grievance Payout Costs in the South Florida District        HR-MA-14-008




                                                       12
